AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

 POLICING SERVICES HIRING PROGRAM GRANT 

 ADMINISTERED BY THE PHILADELPHIA POLICE 

                DEPARTMENT 

       PHILADELPHIA,PENNSYLVANIA 




         u.s. Department of Justice
       Office of the Inspector General
                Audit Division

         Audit Report GR-70-13-002 

               November 2012 

      AUDIT OF THE OFFICE OF COMMUNITY ORIENTED
 

       POLICING SERVICES HIRING PROGRAM GRANT


       ADMINISTERED BY THE PHILADELPHIA POLICE 

                     DEPARTMENT
 

             PHILADELPHIA, PENNSYLVANIA



                        EXECUTIVE SUMMARY

                                         


       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant,
2009-RJ-WX-0074, awarded to the Philadelphia Police Department
(Philadelphia), Philadelphia, Pennsylvania. This grant provided $10,903,350
in funding to Philadelphia to hire 50 additional sworn officers.

      The objective of our audit was to determine whether costs claimed
under the grant were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. We also assessed Philadelphia’s program performance in meeting
grant objectives and overall accomplishments.

      We determined that Philadelphia generally complied with all essential
grant requirements in the areas we tested. However, we found inaccuracies
in the information Philadelphia submitted to COPS in its grant application.
To select CHRP grantees, COPS developed a methodology that scored and
ranked each applicant based on key data submitted by the applicant. While
COPS performed some limited data validity checks, COPS relied heavily on
the accuracy of the data submitted by grant applicants. As a result, we
reviewed the application statistics Philadelphia submitted and found
inaccuracies. We also assessed the effect of Philadelphia’s inaccurate
application data and determined that it did not appear to have affected the
suitability of the award. However, to ensure future awards are not affected
by inaccurate data, we recommend that Philadelphia enhance its procedures
to ensure it submits accurate data for future award applications.

     These items are discussed in further detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix 1.

       We discussed the results of our audit with Philadelphia officials and
have included their comments in the report, as applicable. In addition, we
requested a response to our draft report from Philadelphia and COPS, and
their responses are appended to this report as Appendix II and III,


                                      -i­
respectively. Our analysis of both responses, as well as a summary of
actions necessary to close the recommendations can be found in Appendix
IV of this report.




                                   -ii­
                                 TABLE OF CONTENTS

                                                  


INTRODUCTION ........................................................................ 1
  

The Office of Community Oriented Policing Services ......................... 1
           

American Recovery and Reinvestment Act ...................................... 1
          

COPS Hiring Recovery Program ..................................................... 2
     

City of Philadelphia, Pennsylvania .................................................. 2
  

OIG Audit Approach ..................................................................... 2

                                                                                          


FINDINGS AND RECOMMENDATIONS........................................ 4
                       

Application Statistics ................................................................... 4
 

Internal Control Environment ....................................................... 5
       

Personnel and Fringe Benefit Expenditures...................................... 6
            

Drawdowns................................................................................10
  

Budget Management and Control..................................................10
            

Reporting ................................................................................. 11

                                                                                              

Compliance with Award Special Conditions.....................................12
              

Program Performance and Accomplishments ..................................13
                 

Conclusion ................................................................................ 14

                                                                                              

Recommendation....................................................................... 14
     


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ........15

                                                          


APPENDIX II - PHILADELPHIA POLICE DEPARTMENT
    

   RESPONSE TO THE DRAFT AUDIT REPORT ........................ 17

                                                                 


APPENDIX III - OFFICE OF COMMUNITY ORIENTED POLICING
  

   SERVICES RESPONSE TO THE DRAFT AUDIT REPORT ....... 19

                                                         


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT ..................................................... 21

                                                                               

                            INTRODUCTION

       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant,
2009-RJ-WX-0074, awarded to the City of Philadelphia Police Department
(PPD), Philadelphia, Pennsylvania. This grant, in the amount of
$10,903,350, was used to hire 50 additional officer positions.

      The objective of our audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. We also assessed Philadelphia’s program performance in meeting
grant objectives and overall accomplishments.

Office of Community Oriented Policing Services

       The Office of Community Oriented Policing Services (COPS), within the
Department of Justice, assists law enforcement agencies in enhancing public
safety through the implementation of community policing strategies in
jurisdictions of all sizes across the country. The COPS office provides
funding to state, local, and tribal law enforcement agencies and other public
and private entities to hire and train community policing professionals,
acquire and deploy cutting-edge crime-fighting technologies, and develop
and test innovative policing strategies.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided approximately $4 billion to the Department
of Justice in grant funding to be used to enhance state, local, and tribal law
enforcement efforts. Of these funds, $1 billion was provided to the COPS
Office for grants to state, local, and tribal governments to hire or retain
police officers.


                                     -1­
COPS Hiring Recovery Program

      To distribute the Recovery Act money, COPS established the COPS
Hiring Recovery Program (CHRP), a grant program for the hiring, rehiring,
and retention of career law enforcement officers. COPS created CHRP to
provide 100 percent of the funding for approved entry-level salaries and
benefits (for 3 years) for newly-hired, full-time sworn officer positions, for
rehired officers who had been laid off, or for officers who were scheduled to
be laid off on a future date. COPS received 7,272 applications requesting
funding for approximately 39,000 officer positions. On July 28, 2009, COPS
announced its selection of 1,046 law enforcement agencies as recipients of
the $1 billion CHRP funding to hire, rehire, and retain 4,699 officers. The
grants were competitively awarded based on data submitted by each
applicant related to fiscal and economic conditions, rates of crime, and
community policing activities.

The City of Philadelphia, Pennsylvania

       The City of Philadelphia occupies an area of 140 square miles along
the Delaware River and is the hub of a five county metropolitan area in
southeast Pennsylvania. As of March 2012, the Philadelphia Police
Department serves approximately 1.5 million residents and is the nation's
fourth largest police department, with over 6,600 sworn members and 800
civilian personnel.

OIG Audit Approach

       We tested compliance with what we considered to be the most
important conditions of the CHRP grant. Unless otherwise stated in our
report, we applied the 2009 CHRP Grant Owner’s Manual (Grant Owner’s
Manual) as our primary criteria during our audit. The Grant Owner’s Manual
serves as a reference to assist grantee agencies with the administrative and
financial matters associated with the grant. It was developed by the COPS
Office to ensure that all CHRP grantees understand and meet the
requirements of the grant. We also considered applicable Office of
Management and Budget (OMB) and Code of Federal Regulations (CFR)
criteria in performing our audit. We tested Philadelphia’s:

      •	 Application statistics to assess the accuracy of key statistical
       	
         data that Philadelphia submitted with its CHRP application.

      •	 Internal control environment to determine whether the financial
       	
         and accounting system and related internal controls were adequate


                                     -2­
        to safeguard grant funds and ensure compliance with the terms and
        conditions of the grant.

     •	 Personnel and fringe benefit expenditures to determine
      	
        whether the salary and fringe benefit expenditures charged to the
        grant were allowable, supported, and accurate.

     •	 Drawdowns (requests for grant funding) to determine whether
      	
        requests for reimbursements or advances, were adequately
        supported and if Philadelphia managed grant receipts in accordance
        with federal requirements.

     •	 Budget management and control to determine whether
      	
        Philadelphia adhered to the COPS-approved budgets for the
        expenditure of grant funds.

     •	 Reporting to determine whether the required periodic Federal
      	
        Financial Reports, Progress Reports, and Recovery Act Reports were
        submitted on time and accurately reflected grant activity.

     •	 Compliance with award special conditions to determine
      	
        whether Philadelphia complied with all of the terms and conditions
        specified in the grant award document.

     •	 Program performance and accomplishments to determine
      	
        whether Philadelphia achieved grant objectives and to assess
        performance and grant accomplishments.

      Where applicable, we also test for compliance in the areas of indirect
costs and matching funds. For this CHRP grant, there were no indirect costs
approved and matching funds were not required.




                                    - 3 ­

                  FINDINGS AND RECOMMENDATIONS

          We determined that the Philadelphia Police Department
          generally complied with all of the essential grant
          requirements in the areas we tested. However, we found
          instances where Philadelphia used inaccurate data in its
          grant application. Any exceptions that we cited from our
          audit were reviewed and determined not to be systemic
          in nature and immaterial individually and in total. These
          conditions and the underlying causes are further
          discussed in the body of the report.

Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants.

      In the CHRP Application Guide, COPS reminded applicant agencies to
provide accurate agency information as this information may be used, along
with other data collected, to determine funding eligibility. In our May 2010
report of the COPS grant selection process, we found that the validation
process COPS used to ensure the accuracy of the crime data submitted by
applicants was inadequate. 1 As a result, some agencies may have received
grant funds based on inaccurate applications. However, we were unable to
determine the number of applications that included inaccurate data.

      During this audit, we obtained from Philadelphia documentation to
verify data submitted in its 2009 CHRP grant application. Generally,
Philadelphia was able to provide documentation to support the data
submitted in its CHRP application for eight responses. However, in one
instance Philadelphia was unable to provide documentation for an application
response and in five other instances the documentation provided as support
did not accurately match the application responses. For the one response
that Philadelphia was not able to provide supporting documentation, we
conducted our own research and gathered data that we used to determine

      1
         U.S. Department of Justice Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).


                                         - 4 ­

the application response was reasonable. We also determined the other five
incorrect responses were due to clerical errors. City officials also told us that
adjustments were made to the data after the grant application was
submitted.

      Because the application information was used to determine the
grantee’s eligibility to receive the grant, we analyzed the effect of the
inaccurate data that Philadelphia submitted in its application. We
determined that the inaccurate data did not appear to have affected the
suitability of the award. As a result, we do not question the award of the
CHRP grant to Philadelphia.

      Because the data that grantees submit are relied upon to award
substantial grants, we believe it is vital that grantees ensure that the data
and information submitted to awarding agencies is accurate. In this case,
Philadelphia’s inaccurate application data did not significantly affect the
suitability of its award. Nonetheless, future inaccurate data may have a
substantial effect on award decisions. As a result, we recommend that
Philadelphia establishes procedures to ensure it submits accurate
information for its future grant applications.

Internal Control Environment

      We began this audit by reviewing Philadelphia’s accounting and
financial management system to assess the organization’s risk of non­
compliance with laws, regulations, guidelines, and the terms and conditions
of the grant. We also interviewed management staff from the organization,
performed payroll and fringe benefit testing, and reviewed financial and
performance reporting activities to further assess the risk.

      According to the Grant Owner’s Manual, award recipients are
responsible for establishing and maintaining an adequate system of
accounting and internal controls. An acceptable internal control system
provides cost controls to ensure the optimal use of funds. Award recipients
must adequately safeguard funds and assure they are used solely for
authorized purposes.

      As part of this audit we also considered internal controls significant
within the context of our audit objectives. This included reviewing recent
financial and program audits for any history of grant administration
problems that would potentially affect our approach to this audit.
Specifically, we reviewed Philadelphia’s most recent single audit report
prepared by the City of Philadelphia’s Office of the Controller and met with



                                      - 5 ­

officials from that office to discuss issues related to our audit objectives. We
also reviewed a grant audit report we issued in 2007. 2

      From our review of these audits, we did not identify any organizational
issues related to Philadelphia’s accounting and financial management
system, payroll system, cost accounting system, or grant administration in
general that concerned us in completing this audit.

      As stated in the introduction of this report, the principal objective of
the audit was to determine whether reimbursements claimed for costs under
the grant were allowable and supported. Prior to those costs claimed as
described in the Personnel and Fringe Benefit Expenditures section of this
report, we evaluated Philadelphia’s practices used to calculate and record
these costs in its accounting system and later request reimbursement from
COPS.

      To accomplish the task of tracking expenditures related to this CHRP
grant, the Grants Management Unit within the Philadelphia Police
Department created a cost accounting system. This cost accounting system
uses data from various sources including the payroll system used for
Philadelphia’s police officers.

      We evaluated the reliability of this cost accounting system by verifying
a sample of its payroll data with its underlying source data. Based on these
tests we concluded that the cost accounting system data was reliable and we
used this data in our testing of grant expenditures.

      While our audit did not assess Philadelphia’s overall system of internal
controls, we did review the internal controls related to our principal audit
objective, and we considered the internal controls related to areas listed
under our audit approach. We did not identify any concerns or problems
related to Philadelphia’s practices and procedures for the other areas we
reviewed and tested.

Personnel and Fringe Benefit Expenditures

      The purpose of the CHRP grant awarded to Philadelphia was to fund
personnel and fringe benefit expenditures for hiring 50 new police officers
for 36 months. The approved grant budget totaled $10,903,350, including

       2
         U.S Department of Justice Office of the Inspector General, Office of Community
Oriented Policing Services, Homeland Security Overtime Program, Grant to the City of
Philadelphia Police Department, Philadelphia, Pennsylvania Audit Report GR-70-07-004
(September 2007). Audit findings from this report were related exclusively to personnel
overtime expenditures. As a result, these prior findings were not relevant to this audit.


                                           - 6 ­

$7,220,550 for personnel salaries and $3,682,800 for fringe benefits. By
August 2011, the CHRP-funded officers had been employed for 18 months
and actual grant related charges reported by Philadelphia totaled $4,504,325
million. We tested a sample of these expenditures to determine whether
they were allowable under the approved grant budget and properly
supported with documentation from Philadelphia’s accounting and financial
management and cost accounting systems, and its payroll system.

      The 50 new officers Philadelphia hired for this CHRP grant program
were divided among 3 different officer recruit classes that entered
Philadelphia’s Police Academy between February 2010 and March 2010.
After completing 3 to 8 months of training, all 50 officers graduated from the
academy and were assigned to patrol duties in one of Philadelphia’s
22 community based police districts. 3

Personnel Expenditures

       To determine whether personnel expenditures were adequately
supported for the time officers were attending the academy, we tested a
judgmental sample of the biweekly personnel charges of 20 grant-funded
officers. Our tests included verifying the personnel rates and actual hours
worked with records from Philadelphia’s Office of Human Resources and
attendance records from the academy. We determined the sampled
personnel expenditures were accurately calculated and supported while the
grant-funded officers attended the academy.

      We also selected a judgmental sample of personnel charges reflecting
the time officers worked in patrol duties after completing academy training.
To test this sample, we used Philadelphia’s Office of Human Resources
records to verify pay rates and shift assignment sheets and officer patrol
logs to verify hours worked. We determined the sampled personnel
expenditures were accurately calculated and supported.

       In addition to using academy attendance records and patrol logs to
determine whether the sampled personnel expenditures were properly
supported, we also used these documents to determine whether the
activities underlying the expenditures were allowable according to the terms
and conditions of the grant. According to CHRP guidelines, grant
expenditures must be used for community policing activities which includes
academy training. From our review of patrol logs for 29 officers, we


       3
          For recruits that have already served as sworn law enforcement officers, academy
training lasts 3 months. All other recruits are required to complete 8 months of academy
training.


                                          -7­
determined these officers were engaged in training and routine policing
activities that are allowable activities for CHRP grants.

Fringe Benefit Expenditures

      Based on our review of fringe benefit expenditures, Philadelphia
charged the grant for different fringe benefits that included: (1) health
insurance, (2) holiday pay, (3) life insurance, and (4) Medicare. We
determined that these charges were allowable according to the approved
grant budget.

       To determine whether these expenditures were accurately calculated
and properly supported, we verified the fringe benefit rates and the number
of officers employed during any month using supporting documentation
provided by Philadelphia’s Office of Human Resources. We determined that
these charges were accurately calculated and supported.

      However, in testing fringe benefits we identified $34,053 in
expenditures that were allowable according to the grant budget but were not
charged to the grant. We asked Philadelphia officials why these fringe
benefit expenditures were never charged to the grant and were told that the
accounting system did not have payment vouchers to support these fringe
benefit expenditures. Philadelphia officials attributed the lack of support to a
discrepancy in the monthly fringe benefit reporting system. Therefore, to be
conservative, these expenditures were not charged to the grant when
incurred. Officials told us that they would work with COPS to obtain
reimbursements for these expenditures, and during our audit COPS was
provided a detailed explanation of the fringe benefit reporting system and
the City of Philadelphia Department of Finance’s annual fringe benefit
memorandum as support for the fringe benefit expenditures. On June 30,
2012, COPS gave Philadelphia permission to include these costs in the
Federal Financial Report for the period ending June 2012.

       In addition, there were fringe benefit expenditures specific to health
insurance that were not charged to the grant. City officials informed us that
in July 2010, Philadelphia switched to a self-insured healthcare program
which was not originally approved in the grant budget. As discussed below,
we describe the nature of the health care expenditures under the self-
insured program.




                                     - 8 ­

Health Insurance Expenditures

      Officer health insurance charges were one of the fringe benefits COPS
approved in Philadelphia’s CHRP award budget. At the time of the approval,
these health insurance charges represented payments made by Philadelphia
to the Law Enforcement Health Benefits (LEHB) fund, a legally independent
entity run by the local police union and city trustees to administer health
care coverage with city-provided funds.

      The amount of these monthly payments ($965) for each officer was
established in the current contract negotiated by Philadelphia and the local
police union. Because LEHB has complete control of administering health
benefits for police officers in Philadelphia, LEHB used these payments from
Philadelphia to purchase health insurance for its member police officers.
From our review we determined that Philadelphia used the correct amount
for each officer to charge the CHRP grant between March 2010 and
June 2010.

       Beginning in July 2010, Philadelphia and the police union negotiated
changes to police officer health care fringe benefits. Under this new self-
funded model, LEHB continued to administer the health insurance benefits
for police officers but no longer used payments received from Philadelphia to
purchase health insurance. Instead, LEHB now invoices Philadelphia for the
costs related to providing health insurance to its members. According to an
official from the City of Philadelphia’s Office of Human Resources, the self-
funded model will result in substantial savings.

       In January 2012, COPS approved Philadelphia’s request to use this
self-funded model to charge its CHRP grant. As part of this audit, we
verified monthly costs for each grant-funded officer using the self-funded
method between July 2010 and June 2011. We inspected the monthly
invoices Philadelphia received from LEHB and confirmed the number of
officers covered during the related month.

       Although we determined these monthly costs for each officer were
accurate and supported, Philadelphia did not use these amounts to charge
the CHRP grant. Instead, Philadelphia officials told us they used data from
its accounting and financial management system that underestimated the
health insurance expenditures, and this lesser amount was charged to the
grant. By our calculation, we confirmed that the grant was undercharged by
an average of $130 for each officer between July 2010 and June 2011, or by
$74,113 in total.




                                    -9­
       Philadelphia officials told us they used the lesser amounts to charge
the CHRP grant because they had not yet received COPS approval to use the
self-funded method and the amounts used were traceable to its accounting
and financial system. In the future, officials told us they plan to use the
actual costs for each officer to charge the CHRP grant.

      In summary, we determined that all health insurance expenditures
charged to the CHRP grant, totaling $735,220 between March 2010 and
June 2011, were allowable and supported.

Drawdowns

      As part of this audit, we reviewed the process Philadelphia used to
request grant funding. COPS requires grantees to minimize the cash
maintained on hand by requesting funds based on immediate cash
disbursement needs. Even though advances are allowed, funds must be
used within 10 days of an electronic transfer. As of January 2012,
Philadelphia requested $5,222,673 in CHRP grant funds.

      To determine if drawdowns were completed in advance or on a
reimbursement basis, we interviewed grant officials, analyzed bank
statements, and reviewed documentation in support of actual expenditures.
We determined that grant funds were requested on a reimbursement basis.
In addition, we determined that drawdowns were requested based on actual
expenditures and did not exceed grant expenditures. We found
Philadelphia’s drawdown process to be adequate in minimizing the time
lapse between the drawdown of funds and disbursement of those funds. As
a result, we found the drawdown procedures were adequate and complied
with grant requirements.

Budget Management and Control

       Criteria established in 28 C.F.R. § 30 addresses budget controls
surrounding grantee financial management systems. According to the
C.F.R., grantees are permitted to make changes to their approved budgets
to meet unanticipated program requirements. However, the movement of
funds between approved budget categories in excess of 10 percent of the
total award must be approved in advance by the awarding agency. The
following table summarizes the budget for this grant by category.




                                    - 10 ­

                    CHRP GRANT BUDGET AWARDED 

                            TO THE PPD

                                      

                    Category           Budget Amount
               Personnel                      $   7,220,550
               Fringe Benefits                    3,682,800
               Total                          $10,903,350
              Source: COPS

      During our audit, we found that Philadelphia maintained spreadsheets
to monitor that the personnel expenditures and fringe benefits stayed within
the approved grant budget. We compared the total personnel and fringe
benefits charged to the grant from Philadelphia’s accounting and financial
management system to the budget categories established by COPS’s final
budget approval. While this grant was still in progress at the time of our
audit, Philadelphia remained within the approved budget allowance for
personnel and fringe benefit expenditure categories within this grant.

Reporting

Federal Financial Reports

      The financial aspect of CHRP grants are monitored through Federal
Financial Reports (FFR). According to the Grant Owner’s Manual, FFRs
should be submitted within 30 days of the end of the most recent quarterly
reporting period. Even for periods when there have been no program
outlays, a report to that effect must be submitted. Funds or future awards
may be withheld if reports are not submitted or are excessively late.

      We reviewed the nine FFRs Philadelphia submitted between July 2009
and September 2011 and determined all of these reports were submitted in
a timely manner.

      We also reviewed these same FFRs for accuracy by comparing the
amounts reported in the reports with data from Philadelphia’s accounting
and financial management system. We concluded that each report reflected
the total expenditures in the accounting system for the period under review.

Progress Reports

      Progress reports provide information relevant to the performance of an
award-funded program and the accomplishment of objectives as set forth in
the approved award application. According to the CHRP Grant Owner’s


                                   - 11 ­

Manual, these reports must be submitted quarterly, within 30 days after the
end of the reporting periods for the life of the award.

       We reviewed the quarterly progress reports Philadelphia submitted to
COPS which included responses to general questions and narrative to
describe the impact grant funding was having on community policing. We
determined that Philadelphia’s quarterly progress reports, filed between
December 2009 and September 2011, stated that CHRP funding was being
used to enhance community policing capacity in line with the community
policing plan included in Philadelphia’s grant budget. We also determined
that Philadelphia’s assertion that CHRP funding enhanced its community
policing capacity was reasonable. Accordingly, we found the reports we
reviewed to be accurately based on the documentation we reviewed.

       We also tested Philadelphia’s timeliness in submitting progress reports
to COPS. We tested four reports submitted by Philadelphia and determined
all of the reports were submitted in a timely manner.

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports which require both
financial and programmatic data. The Recovery Act requires recipients to
submit their reporting data through FederalReporting.gov, an online web
portal that will collect all reports. Recipients must enter their data no later
than 10 days after the close of each quarter beginning September 30, 2009.

      We tested four Recovery Act reports submitted through the quarter
ending September 2011 and found that the reports were timely and the data
contained in the reports was accurate.

Compliance with Award Special Conditions

      Award special conditions are included in the terms and conditions for a
grant award and are provided in the accompanying award documentation.
Special conditions may also include special provisions unique to the award.
Philadelphia’s CHRP grant contained a special condition requiring that
funding should only be used for payment of approved full-time entry level
sworn officer salaries and fringe benefits. As discussed in the Personnel and
Fringe Benefit Expenditures section of this report, we found that Philadelphia
used the grant for its intended purpose.




                                    - 12 ­

Program Performance and Accomplishments

      COPS established two performance measures for CHRP grants:
(1) hiring or retaining police officer positions and (2) enhancing the
community policing capacity of the police department. To evaluate
performance, COPS uses quarterly progress reports describing how grantees
are using CHRP funding to implement their community policing strategies
and their progress hiring and rehiring officers. However, COPS does not
require grantees to document the statistics used to complete questions in
the progress reports and does not use the grantee’s community policing
capacity implementation rating, identified in the progress report, in
determining grant compliance.

       We determined that Philadelphia hired the 50 new officers funded by
this grant in a timely manner. All 50 officers were assigned to a police
district within 8 months following Philadelphia’s acceptance of the grant on
August 25, 2009. However, as of December 2011, 3 of these 50 officers left
the police department and these vacancies had not been filled. 4

       Philadelphia Police officials told us they did not backfill these three
vacancies because they were in the process of establishing a new baseline
number of locally funded officer positions. At the conclusion of our audit,
officials said they plan to fill three officer vacancies by December 2012.

       In addition to analyzing how well Philadelphia filled its CHRP-funded
officer positions, we assessed whether community policing capacity was
enhanced as a result of this grant. COPS defines community policing as “a
policing philosophy that promotes and supports organizational strategies to
address the causes and reduce the fear of crime and social disorder through
problem-solving tactics and police-community partnerships.”

       To determine whether grant-funded activities enhanced its community
policing capacity; we considered information from Philadelphia’s CHRP grant
application, including its community policing plan, and responses to
application questions regarding the intended impact of grant funding. In
addition, we reviewed the quarterly progress reports Philadelphia submitted
to COPS that included responses to general questions and narrative to
describe the impact grant funding was having on community policing.

      We compared the community policing information taken from the
grant application and the progress reports with the activities supported by
       4
          According to Philadelphia Police officials, the three officer positions are vacant
because two officers resigned and another officer returned to a previously held civilian
position.


                                             - 13 ­
grant funded expenditures. Generally speaking, grant funded expenditures
paid salary and fringe benefits of the CHRP officers while they attended the
police academy and later when they were assigned to community patrol
duties throughout Philadelphia.

      We determined that Philadelphia’s quarterly progress reports between
December 2009 and September 2011 showed that Philadelphia was using
the CHRP grant to enhance its community policing capacity in line with the
community policing plan included in the grant application. We also
determined that Philadelphia’s assertions that CHRP funding was enhancing
its community policing capacity were reasonable.

Conclusion

       We found that the Philadelphia Police Department generally complied
with all of the essential grant requirements in the areas we tested.
However, we found instances where Philadelphia used inaccurate data in its
grant application, although it did not appear to have affected the suitability
of the award. Any exceptions that we cited from our audit were reviewed
and determined not to be systemic in nature and immaterial individually and
in total.

Recommendation

We recommend that COPS:

   1. Ensure Philadelphia establishes procedures to verify that it submits
      accurate information for its future grant applications.




                                    - 14 ­

                                                               APPENDIX I


            OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of our audit was to determine whether reimbursements
claimed for costs under grant 2009-RJ-WX-0074 were allowable, reasonable,
and in accordance with applicable laws, regulations, guidelines, and the
terms and conditions of the grant. We also assessed grantee program
performance in meeting grant objectives and overall accomplishments. We
reviewed activities in the following areas: (1) application statistics,
(2) internal control environment, (3) personnel and fringe benefit
expenditures, (4) drawdowns, (5) budget management and control,
(6) reporting, (7) compliance with grant requirements, and (8) program
performance and accomplishments. We determined that indirect costs and
matching funds were not applicable to this grant.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We audited the COPS Hiring Recovery Program grant
2009-RJ-WX-0074. The grantee had a total of $5,222,673 in requests for
grant funding through January 23, 2012.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audited against are contained in the 2009 COPS Hiring Recovery
Program Grant Owner’s Manual and grant award documents.

      In conducting our audit, we performed testing in three areas:
personnel and fringe benefit expenditures, Progress Reports, and Recovery
Act Reports. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such
unique payroll and fringe benefits adjustments throughout the year. This
non-statistical sample design did not allow projection of the test results to
the universe from which the samples were selected.

       In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports, Progress Reports, and Recovery Act Reports; and
evaluated performance to grant objectives. However, we did not test the
reliability of financial management system as a whole. We tested the


                                    - 15 ­

reliability of the information in the accounting and financial management
system, the payroll system, and the cost accounting system during the
payroll verification testing. We traced a sample of the information in these
various systems to supporting documentation and found the information to
be reliable.




                                    - 16 ­

                                                                                                  APPENDIX II

PHILADELPHIA POLICE DEPARTMENT RESPONSE TO THE
              DRAFT AUDIT REPORT

                                





    C       I TY                    C> F     P H I L A D E L P H IA
    POLICE OEPARTMENT                                                                        CHAALES H. RAMSEY
    Headqullrttn, Franklin Square                                                                 COMMI SS IONER
    Philede!phIt., PA 191011
                                                                                    CklObcr 26, 2012


    1llomas O. !'veoer
    Office of the I n~pcclor General
    Philadelphia Region:!1 Audit Office
    701 Markel Street, Suite 201
    Phil:tdclphiil. PA 19106

     Dear Mr. Pucrlc r:

    The Philadelphia Po lice Dcpan mc lll wis hes to lh:mk the US. Dcpanmcll! of JUMicc. Office
    of the [n~pcc[or General and the O ffice o f Communily Oriented Policing Service, for the
    OpponunilY \0 commen t on the audit fin dings of the OIG in reference to CO p '~ I l iring
     Rcco"cry Program 2009- RJ-WX-0074. The Philadelphia Police Dcpanmclll j, plc:J!\Cd 10
    know \h:Jt any oflhc exceptions thaI you ci ted from your audit were not found \0 be 'y\\cmic
    in nature and ""'OJ:. immaterial individ ually and in 101al.

     While Ihe Philadelphia Police Dcp.1nmcnt agrecs with the recommcndation of the 'lUdlt. we
     wh.h to COl1ll1ltnl on the specific d iscrepancies in l>t:llil>tic, noted by the lIudito~ in the City'~
     application.

     The Po lice Dcpanmem would agree with the auditor'S fi nding.~ regilrding the di., crepancie,
     noted in [he Cily"!> ge neral fund balances. The dil>c repancy in fun d balance~ wa~ due to ill!
     error in lr,w'ro,i ng tlK' nurnbc .... by an official in the City'~ Fi n anc~ Department ",hen they
     wcre provided for the ilpplication. l bc official rcadi ly <lcknowlcdgcd thi~ error to tIlt
     auditon. upon their re\' icw.

     l11C diM:rep:mcie, found in the unemployment application statistics. noted by the 'lUdilOrs.
     wcre attribu table. :Jl> ~tated by city official~ in tIlt repon. to adjustment~ to the-.c 'tati,ticl>
     after [he application wa~ ~ubmi lled.

     T he 2008 motor theft ~tati~tica l discrep:mcy found by the auditors. namely 9058 on the FB I
     website \'er~us 9054 recorded and repoJ1ed by the Ph iladelphia Police De partlllent cannot Ix:
     explained by the Police DepaJ1menl. The Police Depal1ment maintained the ~ollrce
     docume nts for thi, ~tmistic and submilled that numbe r to the Commonwealth :lIld Feder:ll
     allt hori[ie~. TIle Police Deran ment's position is that 9054 is the correct number for 2008
     motor vehicle thefb in Philadelphia <lnd that wa~ the ~lat i~lic we provided for UCR report.




                                                     - 17 ­

With the~e ~pecific coml11en t ~ made. thc Police Dcpartmem would concur with the auditor'~
rcport on page 5. ,,[ that the inaccuratc (hlt,ll did not appear to have affected the ~uitahil ity of
the award."

Overall, the Police Department docs acknowledge thc statistical di~crepancie~ found by the
0[0. small. and immaterial to the award as they may be. Therefore the Police Department
would agree wilh the O[G recommendation that "Philadelphia establishes procedures to
verify that it submits accur(l!e information for its future grant ;tpplications."

The Police Department will. beginning immediately. require fCtaining copies of all hl)uree
documents of application data as pan of the gram file records. This would provide and
preserve it " ~ napshO\" of the data gathered and submilled at the time of application. This
process would serve the dual purpose of veri fyin g the accuracy of application data and
preserving the snapshot of data at the time of submi ssion to an~wer for any revi~i o n~ lhal
may occur betwecn the lime of application and subsequent audit.

Again, the Police Depanmenl expresses our gratitude \0 the DOJ for the funding provided by
this C HRP gfilnt and the opportunity \0 comment on the findings (~olllained in the 010 audit
report.


Sincer'



~)",~~y~~--~(
Police Commissioner
Philade[phia Police Department




                                               - 18 ­

                                                                                        APPENDIX III

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
      RESPONSE TO THE DRAFT AUDIT REPORT

                                        


                 u.s. DEPARTMENT OF J USTICE
                 OFFICE OF COMMUNITY ORIENTED POLICING SERVICE S

                 Gram Operations Directorate/ Audit Liaison D ivi sion
                                                                                           COPS
                 145 N ~treet, N .E., Washi ngton, D C 20530


                                           MEMORANDUM

    Via E-Mail
    To:           Thomas O. Puerzer
                  Regional Audit Manager
                  Office of the Inspector General
                  Philadelphia Regional Audit Office

    From :        Lashon M.   Hilliardo(~"~
                                        ,,'
                  Management Analyst
                  COPS Audit Liaison Division

    Date:         November 6, 2012

    Subject:       Response to the Draft Audit Report for the Hiring Recovery Program (CHRP)
                   Grant to the Phi ladelphia Police Department, Philadelphia, Pennsylvania
                   COPS CHRP Grant 2009RJWX0074

            This memorandum is in response to your draft audit report, dated September 21 , 20 12,
    for the Philadelphia Police Department (PPD), Philadelphia, PA. For ease of review, each audit
    recommendation is stated in bold and underlined, followed by COPS' response to the
    recommendation.

    Recommendation 1: Ensure Philadelphia establishes procedures to verify that it submits
    accurate information for its future grant applications.

         COPS concurs that PPD should establish procedures to verify that it submits accurate
    information for future grant applications.

    Planned and Completed Actions:
          After review of your report and the grantee' s response, PPD has instituted a mandatory
    records retention requirement whereby copies of all source documents of applications data are
    maintained as part of the grant file records. The process will serve as data validity and reliability
    information from the time of application and/or revisions throughout the grant implementation
    life cycle.

     Request

            Based on the discussion, planned and completed actions, COPS requests closure of
        Recommendation 1, thereby closing the entire audit report.

            The COPS Office would like to thank you for the opportunity to review and respond to
        the draft audit report.

     ADVANCING PUBLIC SAFETY THROUGH COMMUNITY POLICING
                                                   I<




                                                 - 19 ­

Thomas O. Puerzer, Regional Audit Manager, Phi lade lphia Regional Audit Office
November 6, 20 12
P , I g. I.: 12

(fyou have any questions, please contact me at (202) 514-6563.

cc:    Thomas O. Puerzer (copy provided electroni call y)
       Regional Audit Manager
       Office of the Inspector General
       Phi ladelphia Regional Audit Office

       Louise H. Duhamel, Ph. D (copy provided electronicall y)
       Acting Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Offi ce
       Justice Management Division

       Marcia O. Samuels-Campbell (copy provided electronically)
       Acting Deputy Director for the Grant Operations Directorate
       Community Oriented Polici ng Services (COPS)

       Martha Viterito (copy provided electronically)
       Aud it Liaison
       COPS Audit Liaison Div ision

       Audit File Copy
       OR' : PAPEPOO




                                           - 20 ­

                                                             APPENDIX IV


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Philadelphia Police
Department (Philadelphia) and the Office of Community Oriented Policing
Services (COPS) for review and comment. Philadelphia’s response is
included as Appendix II of this final report, and COPS’s response is included
as Appendix III. The following provides the OIG analysis of the responses.
Based on the OIG’s analysis of the responses, this audit report is issued
closed.

Recommendation Number

   1. Closed. Philadelphia and COPS concurred with our recommendation
      to ensure Philadelphia establishes procedures to verify that it submits
      accurate information for its future grant applications.

      In its response, Philadelphia stated that it has instituted a mandatory
      records retention requirement, whereby copies of all source documents
      of application data are maintained as part of the grant file
      (records). This process was designed to serve the dual purpose of
      verifying the accuracy of application data and preserving the snapshot
      of data at the time of submission to answer for any revisions that may
      occur between the time of application and subsequent audit.

      This recommendation is closed.




                                     - 21 ­

